                                        NATIONAL SCIENCE FOUNDATION
                                         OFFICE OF INSPECTOR GENERAL
                                           OFFICE OF INVESTIGATIONS


                           CLOSEOUT MEMORANDUM

Case Number: A06020003                                                    Page 1of 1



    In February 2006, a complainant called OIG with a n allegation of duplicate
    submission of proposals. He said the subject' used to work for.the complainant's
    company,2 but recently left to start his own small business.3 The complainant said
    his company submitted a Phase I SBIR proposal to another Federal agency,4 which
    funded it. After he left the complainant's company, the subject allegedly submitted
    the same Phase I proposal to NSF from his new company. The complainant told
    one of the owners of the new company about it, and the owner said he would take
    care of the problem. The complainant said he would provide the other proposal, but
    did not do so. The complainant did not provide any contact information. We have
    no evidence of wrong-doing, and no way to proceed without the other proposal (of
    which we don't know the PI or title). Accordingly, this case is closed.




       1 (redacted).
       2 (redacted). .
       3 (redacted).
       4 The Department of Homeland Security.
